                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECtOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-09080051                                                                       Page lofl



         This investigation was opened to review participant support charges 1 made to an NSF award2•

         Our investigation, which included a review of financial records, revealed that the awardee
         institution3 spent less than the amount proposed on participant support without prior approval
         fromNSF to rebudget funds. The institution also classified several expenses as participant
         support that did not qualify as such, including recruitment and advertising costs, and faculty
         travel.

     .. . The .awardee institution made a financial adjustment~ following the fiuancial dose of the award.
          and our first contact regarding the award. The adjustment was greater than the amount of
                                                                                                             .

          misclassified participant support charges, and accounted for the amount underspent in the
          participant support budget category.

         In light ofthe above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
